<html>
<title> - ASSESSING THE IRAN DEAL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                        ASSESSING THE IRAN DEAL

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2017

                               __________

                           Serial No. 115-23

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                             __________
                        
                       
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
26-555 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8dfc8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>                        
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

               Jonathan Skladany, Majority Staff Director
                    William McKenna General Counsel
     Sharon Eshelman, National Security Subcommittee Staff Director
                  Ari Wisch, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Member
Justin Amash, Michigan
Virginia Foxx, North Carolina
Jody B. Hice, Georgia
James Comer, Kentucky
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2017....................................     1

                               WITNESSES

Lieutenant General Michael Barbero, U.S. Army, Retired, Advisory 
  Board Member, United Against Nuclear Iran
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. David Albright, President, Institute for Science and 
  International Security
    Oral Statement...............................................    13
    Written Statement............................................    15
Mr. Mark Dubowitz, Chief Executive Officer, Foundation for 
  Defense of Democracies
    Oral Statement...............................................    27
    Written Statement............................................    29
Ray Takeyh, Ph.D., Hasib J. Sabbagh Senior Fellow for Middle East 
  Studies, Council on Foreign Relations
    Oral Statement...............................................    55
    Written Statement............................................    57
Jim Walsh, Ph.D., Senior Research Associate, Security Studies 
  Program, Massachusetts Institute of Technology
    Oral Statement...............................................    62
    Written Statement............................................    64

                                APPENDIX

Response from Lieutenant General Barbero, United Against Nuclear 
  Iran, to Questions for the Record..............................    90
Response from Mr. David Albright, Institute for Science and 
  International Security, to Questions for the Record............    92
Response from Dr. Dubowitz, Foundation for Defense of 
  Democracies, to Questions for the Record.......................    97
Response from Dr. Takeyh, Council on Foreign Relations, to 
  Questions for the Record.......................................   108

 
                        ASSESSING THE IRAN DEAL

                              ----------                              


                        Wednesday, April 5, 2017

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:19 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Russell, Gosar, Hice, 
Comer, Lynch, Demings, and Welch.
    Also Present: Representative Jordan.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time. We will have some additional 
colleagues that are not here now. I will recognize them and 
waive them in when they are here.
    On July 14, 2015, the United States, United Kingdom, 
France, Germany, Russia, and China reached an agreement with 
Iran called the Joint Comprehensive Plan of Action, widely 
known as the Iran nuclear deal. The Obama administration pushed 
an agreement giving Iran massive and immediate sanctions 
relief. In return, the world's largest state sponsor of 
terrorism agreed to temporarily pause its pursuit of nuclear 
weapons.
    Shortly after announcing the deal, then-President Obama 
called it, quote, the strongest nonproliferation agreement ever 
negotiated, and promised it, quote, cuts off all of Iran's 
pathways to a bomb. But over a year and a half later, those 
words ring hollow. Instead of cutting off a path to the bomb, 
the JCPOA gives Iran a clear road to the bomb.
    The nuclear deal's sunset clauses phased out most of its 
significant restriction on Iran's nuclear agreement over the 
course of the next 10 or 15 years. Once this happens, Iran will 
have access to a large-scale nuclear program powered by 
advanced technology and vastly increased resources due to the 
lifting of sanctions. President Obama acknowledged that lifting 
sanctions would give Iran access to advanced centrifuges, and 
by year 15 of the deal, the time it takes for Iran to, quote, 
break out and create a nuclear weapon will, quote, have shrunk 
down almost to zero, end quote.
    This is a bad deal. That's why President Trump called it 
the worst deal ever negotiated. It's also why Senate Minority 
Leader Schumer and the Democratic ranking members of the House 
Foreign Affairs Committee and Senate Foreign Relations 
Committee all opposed it. And that's only part of the story.
    After the JCPOA was adopted, the Obama administration made 
a bad deal even worse through its feeble implementation. The 
Obama administration failed to penalize Iranian violations, 
gave Iran exemptions from the JCPOA's nuclear restrictions, 
weakened sanctions far beyond the terms of the agreement, 
allowed Iran's ballistic missile launches and regional 
aggression to go unchecked. Not only did the Obama 
administration give Iran a pass, Secretary of State John Kerry 
actually served to lobby on behalf of Iran, flying to London 
and pitching European bankers that Iran was, quote, open for 
business, as his staff pressed Governors across the country to 
drop their State's Iran's sanctions.
    Thankfully, the Trump administration signaled the beginning 
of a different approach this February. When Iran continued 
pursuing an agenda of regional aggression against us and our 
allies, the new administration responded by putting Iran, 
quote, on notice, and imposing new sanctions.
    This hearing will highlight the numerous problems with the 
Iran nuclear deal that demand correction by the new 
administration, as well as Iran's destabilizing activities 
throughout the Middle East. The Obama administration failed to 
hold Iran to the JCPOA's nuclear restriction on critical issues 
like uranium, heavy water, and centrifuge restrictions. 
Independent experts have identified numerous ways in which Iran 
has been allowed to violate the deal's provisions, exploit 
loopholes, and being granted secret exemptions with no penalty.
    There are also serious questions about the effectiveness of 
the IAEA's verification process and the degree of access its 
inspectors are receiving. There are other serious problems with 
the deal besides the implementation of its nuclear provisions.
    After numerous U.S. sanctions on Iran were lifted on 
implementation day, Department of Treasury officials continue 
to weaken the sanctions. Treasury changes official guidance on 
a Friday evening before a holiday to allow foreign companies to 
do business with entities controlled by the Iran Revolutionary 
Guard Corps, IRGC, process on dollar transactions involving 
Iran and loosen due diligence standards.
    Treasury also removed a number of entities tied to Iran's 
ballistic missile program and the IRGC from its sanctions list. 
For example, Treasury lifted sanctions on Bank Seppa, which it 
previously called the financial linchpin of Iran's missile 
procurement network.
    Despite all these concessions, the deal failed to quiet 
Iran's belligerence. Just last week, the head of U.S. Central 
Command testified before Congress that, quote, we have not seen 
any improvement in Iran's behavior since the deal was finalized 
in July of 2015. This is evident from Iran's numerous ballistic 
missile tests conducted in defiance of U.N. restrictions and 
its escalating aggression towards the U.S. Navy in the Persian 
Gulf.
    The State Department has identified Iran, still to this 
day, as the world's foremost state sponsor of terrorism. And 
now the funds Iran has gained through the deal sanctions relief 
are flowing in part to terrorists and insurgent groups, 
something former Secretary of State Kerry admitted would likely 
happen. The IRGC continues to use terror and insurgency to 
expand Iran's influence throughout the Middle East, including 
support for the Assad Government in Syria, radical Shiite 
militias in Iraq, Hezbollah in Lebanon, and Houthi rebels in 
Yemen.
    Simply put, the deal, along with the way it has been 
implemented, is not a viable course of action going forward. 
The U.S. must make clear that Iran's nuclear violations, 
illicit financial networks, ballistic missile tests, and 
otherwise malignant activities will not be tolerated. This 
hearing will specifically identify where these problems 
originate, and discuss what we need to do to fix them.
    And with that, I will now recognize the ranking member of 
the subcommittee, Mr. Lynch, for his opening statement.
    Mr. Lynch. Thank you very much, Mr. Chairman. I'd also like 
to thank you for holding this hearing to examine the continued 
implementation of the Joint Comprehensive Plan of Action, 
otherwise known as the Iran nuclear agreement. I'd also like to 
thank today's witnesses for helping the subcommittee with its 
work.
    As reported by director--former Director of National 
Intelligence, Jim Clapper, in 2016, worldwide threat 
assessment, Iran remains the, quote, foremost state sponsor of 
terrorism and presents an enduring threat to U.S. interests 
because of its support to regional terrorists and militant 
groups and the Assad regime, as well as its development of 
advanced military capabilities.
    Similarly, the most recent State Department 
counterterrorism report issued by the Obama administration in 
2016 again underscored that Iran has been designated as a state 
sponsor of terrorism since 1984, and is maintaining its 
terrorist-related activity through support for Lebanese 
Hezbollah, Iraqi Shia terrorist groups in Iraq, Palestinian 
militant organizations in Gaza, and Iraqi, Afghan, and 
Pakistani Shia fighters aiming to bolster the Assad regime in 
Syria.
    There is no doubt that Iran is a destabilizing force in the 
Middle East and continues to provide arms, financing, and 
training to terrorist groups in the region. It also remains 
unequivocally clear that we cannot trust the Iranian 
leadership, given these subversive military and foreign policy 
objectives. That is precisely why the U.S., the United Kingdom, 
France, Russia, China, Germany, and Iran sought to contain 
them. For these same reasons, successful implementation of the 
Iran nuclear agreement is not dependent on our trust that Iran 
will simply abide by the terms of the deal and limit its 
nuclear program and nuclear weapons capabilities.
    A key advantage we gained is the ability to place 
inspectors and investigators on the ground in Iran. In 
referencing adversarial nations in the nuclear arms race in his 
1960 inaugural address, President Kennedy remarked that the 
sincerity of negotiations, quote, ``is always subject to 
proof,'' close quote. And to this end, a determination of 
whether Iran is living up to its commitments under the nuclear 
agreement is entirely based on the proof in the form of on-the-
ground, realtime, robust nuclear inspections conducted by the 
independent International Atomic Energy Agency.
    On March 8, the IAEA director general, Yukiya Amano, 
released his latest report on Iran's compliance with the 
nuclear agreement and corresponding U.N. Security Council 
Resolution 2231. As reported by the IAEA, Iran has already 
permanently disabled the core of the heavy water reactor at its 
water plant--heavy water plant in Iraq by filling it with 
concrete, quote, ``such that the agency was able to verify that 
it is not useable for a future nuclear application,'' close 
quote. In addition, all existing uranium pellets and fuel 
assemblies related to the original design of the Iraq reactor 
remain under continuous IAEA supervision.
    This is solid verified proof that Iraq has abided by its 
commitment under the Iran nuclear agreement to render the Iraq 
reactor inoperable so they can no longer produce weapons grade 
plutonium. According to the IAEA, Iran is thus far abiding by 
its commitment to refrain from producing or attaining uranium 
enriched at a level greater than 3.67 percent for 15 years, and 
is far less than the approximate 90 percent enrichment level of 
weapons grade uranium and the 20 percent level of uranium that 
Iran had previously stockpiled.
    The IAEA also reports that there are currently no more 
centrifuges at the Natanz Fuel Enrichment Plant than are in 
accordance with Iran's obligation to dismantle two-thirds of 
its centrifuges to enrich uranium for the next 10 years.
    The IAEA enjoys unprecedented and open access to Iran's 
nuclear facilities. It conducts formal reviews on at least a 
quarterly basis, and has determined that Iran has met its 
commitments in every one of its reports. This is a vast 
improvement over previous international ballpark estimates to 
try to assess Iran's nuclear capabilities based on hypothetical 
breakout times. It is in light of the critical and continued 
work of the IAEA to verify Iranian compliance with the nuclear 
agreement that we must make every effort to ensure that the 
agency is able to carry out its inspections and verification 
workload.
    Director General Amano recently stated that absent a 2.1 
percent increase to its operating budget in 2018, or $400 
million from its contributing member states, the IA will not be 
able to implement the verification and monitoring activities 
required in Iran. In stark contrast, the budget blueprint 
recently submitted to Congress by President Trump proposes a 
nearly 29 percent, or $10 billion, cut to the State Department 
budget. This could drastically decrease our estimated $200 
million annual contribution as the IAEA's largest contributor, 
given that our typical 25 percent share of IAEA funding comes 
from the State Department.
    While I understand that members on both sides of the aisle 
may have concerns with the rationale behind the agreement 
itself, I strongly believe we must continue to support the 
IAEA's work of inspection that the Iran nuclear deal is in 
place.
    Mr. Chairman, I look forward to discussing with today's 
witnesses what additional steps we can take in furtherance on 
the sole purpose of the agreement, and, quote, ``that under no 
circumstances will Iran ever seek, develop, or acquire any 
nuclear weapons,'' close quote, as required in the agreement.
    Thank you, Mr. Chairman, and I yield back the balance of 
our time.
    Mr. DeSantis. Thank you.
    I'll hold the record open for 5 legislative days for any 
members who'd like to submit a written statement.
    We'll now recognize our panel of witnesses. I'm pleased to 
welcome Michael Barbero, retired lieutenant general, United 
States Army, and advisory board member for United Against 
Nuclear Iran; Mr. David Albright, president of the Institute 
for Science and International Security; Mr. Mark Dubowitz, 
chief executive officer at the Foundation for Defense of 
Democracies; Mr. Ray Takeyh, Ph.D., the Hasib Sabbagh senior 
fellow for Middle East Studies at the Council on Foreign 
Relations; and Mr. Jim Walsh, Ph.D., senior research associate 
for the Security Studies Program at MIT.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before you testify. Can you please rise and raise your right 
hands?
    Do you solemnly swear the testimony you're about to give 
will be the truth, the whole truth, and nothing but the truth, 
so help you God.
    Okay. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, we'd appreciate it 
if you limit your testimony to 5 minutes. Your entire written 
statement will be made part of the record.
    We now recognize General Barbero for 5 minutes.

                       WITNESS STATEMENTS

        STATEMENT OF LIEUTENANT GENERAL MICHAEL BARBERO

    General Barbero. Chairman DeSantis, Ranking Member Lynch, 
and members of the subcommittee, thank you for the opportunity 
to appear before you today to discuss the threat posed by the 
ever-expanding ambitions of the Islamic Republic of Iran.
    I served as an infantry officer for 38 years, including a 
total of 46 months in Iraq over three combat tours from 2003 to 
2011. And as a soldier and commander in Iraq, along with my 
good friend, Congressman Steve Russell, I witnessed Iran's 
subversive activities, hegemonic ambitions, and the direct 
targeting of American troops. In the 3 years since my 
retirement from the Army, I've made more than 20 trips to the 
region, meeting with many senior government and business 
leaders, witnessing the spreading domination of the Iranian 
regime from Tehran to the Mediterranean Sea.
    Just 2 weeks ago, I was part of an international group in 
Israel to review the situation on the ground and assess the 
threat of Hezbollah and meet with national security leaders, 
including Prime Minister Netanyahu.
    In the next few minutes, I'd like to highlight how Iran is 
directing its proxies, specifically those in Lebanon and Iraq, 
to successfully pursue a strategy of regional hegemony and 
carving a permanent zone of control. And I believe the actions 
of Iran and its proxies in Iraq and Lebanon present the most 
imminent challenge to the United States interests in the 
region.
    In Lebanon, as we all know, Hezbollah is a creation of 
Iran, and today, it's funded by Iran to the tune of estimates 
of $800 million annually. Until September 11, 2001, Hezbollah 
was responsible for killing more Americans than any other 
terrorist organization. Iran's military support to Hezbollah in 
Lebanon has only grown over time. In 2006, the last time 
Israel--hostilities broke out between Hezbollah and Israel, 
Hezbollah had approximately 13,000 mid- to short-range missiles 
and rockets. Since then, Hezbollah's influence and capabilities 
have increased dramatically.
    According to Israeli estimates, Hezbollah now has an 
expanded arsenal of over 100,000 rockets and missiles, 
including long-range systems that possess greater precision, 
lethality, range, greatly threatening Israel population centers 
and critical infrastructure. Also, Hezbollah has fully 
integrated itself into Lebanon's political, social, and 
military and security apparatus. In recent combat operations in 
Syria to support the Assad regime, Hezbollah has gained 
important conventional capabilities, and is now a hybrid 
military power that is stronger than many conventional armies, 
including Lebanon. In Israel, the universal accepted view is 
that the third Lebanon war is not a question of if, but when, 
and that when is very short-term.
    Turning to Iraq. The good news on Iraq is that ISIS is 
being driven from Mosul. The bad news comes the day after 
Mosul, when Iraq is sunk into endless sectarian strife fueled 
by Iran's support for brutal Shia militias, and the inability 
of the Iraq Government to control them. The Badr Organization, 
Kata'ib Hezbollah, Asaib al-Hak, these and other Iranian 
proxies fighting in Iraq are commanded by Qasem Suleimani, the 
commander of Iran's Quds Force, and have evolved into a 
permanent force in Iraq.
    In a post-ISIS Iraq, these Iranian proxy forces represent 
the greatest threat to stability and security. The well-
documented sectarian actions of Iranian-backed Shiite militias 
are establishing the de facto sectarian partition of Iraq. The 
brutal treatment of Sunnis and other minorities by these 
militias has served to deepen sectarian divisions and increase 
Sunni alienation from Baghdad Government, thereby damaging the 
prospects for post-ISIS political reconciliation in Iraq.
    Our closest ally, the Kurds, have already clashed with 
these militias, and Kurdish leaders say their next fight is 
with these Iranian-controlled militias. If unchallenged, these 
well-resourced Iranian proxy forces will serve in the vanguard 
of the Hezbollahization of Iraq.
    The Iranian resourcing and control of these militias and 
other proxy forces operating in Syria, Yemen, and Bahrain is 
part of a well-established strategy following the Hezbollah 
model. More than a year after signing the deal to postpone its 
ability to acquire nuclear weapons, as its actions across the 
region clearly demonstrate, Iran's desire is to dominate rather 
than be a positive force in the Middle East. Unfortunately, 
with the lifting of sanctions that accompanies the signing of 
the Iran nuclear deal, Tehran's resourcing of its proxy forces 
has continued unrestricted. And as we have seen in its 
aggressive and subversive actions across the Middle East, Iran 
will continue to pursue its strategic goals at the expense of 
regional stability, the security of our allies, and most 
importantly, at the expense of American strategic interests.
    I thank you, and look forward to your questions.
    [Prepared statement of General Barbero follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Albright, you're up for 5 minutes.

                  STATEMENT OF DAVID ALBRIGHT

    Mr. Albright. Thank you, Mr. Chairman, Ranking Member, and 
other members of the committee. Thank you for inviting me to 
testify today.
    The Iran deal needs to be implemented more effectively and 
its nuclear conditions strengthened and better verified. At its 
core, the Iran deal is a bet that by the time the nuclear 
limitations end, Iran, the region, or both will have changed so 
much that Iran will no longer seek nuclear weapons. But despite 
immense sanctions relief, Iran has been increasing its 
conventional military power in efforts at establishing regional 
hegemony. The bet does not appear winnable under the current 
circumstances, and Iran's current trajectory is a threat to the 
United States and its allies in the region.
    Armed with substantial funds and a growing economy, Iran is 
challenging the U.S. in the region and appears as committed to 
maintaining the capability to pursue a nuclear weapons path as 
before, just a longer path. A solution needs to be thought 
through and a remediation path developed that will strengthen 
and fix the JCPOA, but as this longer term process develops, 
the deal needs to be better enforced and verified. A priority 
is knowing how Iran has been violating the deal and associated 
U.N. Security Council Resolution 2231. Also important is 
understanding how Iran exploits loopholes in the deal and 
pushes the envelope of tolerated behavior.
    In my written testimony, I conclude that Iran is not in 
full compliance with the Iran nuclear deal and is flirting with 
violations in several areas. It is fair to conclude that Iran 
is not in compliance with the arms and ballistic missile 
provisions of Resolution 2231. However, it is difficult to 
argue that Iran has so violated the Iran deal, nuclear deal or 
the Resolution 2231's provisions as to justify snapping back 
sanctions.
    Based on available information, certain patterns of Iranian 
noncompliance are clear. Iran often conducts small scale 
cheating on the nuclear deal's limitations, such as we were 
able to identify at least two cases involving centrifuge 
research and development. It misinterprets clauses to justify 
actions that should be viewed as violations. Iran policy to 
deny IA inspectors access to military sites should be viewed as 
fundamentally inconsistent with the nuclear deal and, in fact, 
renders its weaponization development ban, called section T, 
unverifiable.
    A damaging pattern developed during the Obama 
administration where Iran could create a crisis over a 
potential violation, the United States and allies would find--
would have to find a, quote, solution, and Iran would cynically 
demand compensation as part of that solution. A far more 
effective approach would have simply been the United States 
insisting that Iran solve its own compliance issues or simply 
be in noncompliance with the JCPOA.
    The deal's implementation under the Obama administration 
was too permissive and tolerant of Iran's violations of the 
deal, its exploitation of loopholes, and its avoidance of 
critical verification requirements. The result was that Iran 
was able to push the envelope of allowed behavior in directions 
harmful to the U.S. national security. Moreover, U.S. actions 
muddied the waters of determining compliance with the JCPOA.
    Until today, the Trump administration has continued to 
implement the deal, and I hope that policy continues. However, 
that does not mean that the Trump administration should 
continue the previous administration's overly permissive way of 
implementing the deal and its avoidance of dealing with the 
deal's shortcomings. I certainly expect the Trump 
administration to chart a new path forward that better protects 
U.S. interests in national and Middle East regional security.
    A key part of a new approach is looking again at 
compliance. As the leading negotiator of the JCPOA, the United 
States has a special responsibility to thoroughly evaluate 
Iran's compliance with the nuclear deal and Resolution 2231. 
The Trump administration can look freshly at the issue and 
provide a more objective review than done previously.
    If the nuclear deal is to succeed, let alone survive, the 
Trump administration will need to take aggressive actions to 
adequately enforce the nuclear deal and Resolution 2231 toward 
a policy of stricter enforcement. The administration should 
announce that the United States will strictly interpret these 
deals, it will demonstrate zero tolerance for Iranian 
violations, and will respond both within and outside the 
context of these agreements. Where violations are significant, 
the United States should start the process of snapping back 
U.S. and U.N. sanctions. Thank you.
    [Prepared statement of Mr. Albright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Dubowitz, you're recognized for 5 minutes.

                   STATEMENT OF MARK DUBOWITZ

    Mr. Dubowitz. Thank you. Chairman DeSantis, Ranking Member 
Lynch, members of the committee, on behalf of the FDD and our 
Center on Sanctions Illicit Finance, thank you for the 
invitation to testify.
    At the heart of the JCPOA is a fatal flaw. Iran does not 
need to cheat to reach threshold nuclear weapons capabilities. 
By following the deal and waiting patiently for key constraints 
to sunset, Tehran can emerge as a threshold nuclear power with 
an industrial-size enrichment program; near-zero breakout time; 
an easier clandestine sneak-out pathway; an advanced long-range 
ballistic missile program, including ICBMs; access to advanced 
heavy weaponry; greater regional dominance; and a more powerful 
economy, which will be increasingly immunized against our 
ability to use sanctions.
    The U.N. snapback is deal ending, which makes it highly 
ineffective against Iran's incremental cheating strategy that 
Dr. Albright has outlined.
    Since the announcement of the nuclear agreement in July 
2015, Iran has received a significant economic stimulus through 
sanctions relief and additional unilateral concessions from the 
Obama administration. In spite of or because of these economic 
benefits, Iran's destabilizing and malign activities have only 
accelerated.
    To address these threats, Congress and the new 
administration need to follow in the footsteps of Ronald 
Reagan. In the early 1980s, President Reagan instructed his 
National Security Council to develop a comprehensive strategy 
to undermine the Soviet Union. We need a similar plan now, one 
that uses both covert and overt economic, financial, political, 
diplomatic, cyber, and military power to subvert and roll back 
the Iranian threat.
    The administration, with assistance from Congress, needs to 
reinvigorate the sanctions regime aimed at deterring Iran's 
support for terrorism, ballistic missile development, human 
rights abuses, war crimes, and destabilizing activities 
throughout the Middle East. It's very clear that these 
nonnuclear sanctions are fully consistent with the JCPOA. In 
particular, Congress should apply the terms of Executive Order 
13224, the terrorism executive order to the IRGC, and require 
the Treasury Department to expand the number of IRGC entities 
designated from the current 68 to the thousands of entities it 
owns or controls. There is overwhelming evidence to support 
this designation. Congress should reject the argument that this 
designation will provoke the IRGC to threaten or commit 
violence. To do so would hold American policy hostage.
    Since 2013, the conclusion of the interim agreement and 
through the final agreement, there has been enormous increase, 
particularly in Syria, in Iran-related terror attacks, again, 
terror attacks that deliver the use of violence against 
civilians with a political objective. Iran has perpetrated and 
supported these attacks through the IRGC, Hezbollah, and 
Iranian-backed militias. This is part of the reason why the 
State Department calls Iran the leading state sponsor of 
terrorism.
    Congress should also require the administration to 
investigate whether or not Iran Air is supporting Iran's malign 
activities in Syria, Yemen, and elsewhere. As the first slide 
indicates, since implementation day on January 16 of last year, 
there have been 696 flights from Iran to Syria. Of those 
flights, 114 were Iran Air, including some to and from an IRGC 
resupply base in Abadan, Iran.
    On the second slide, you'll see an example of a flight that 
is supposed to travel between Tehran and Damascus, but is 
actually flying by the IRGC resupply base in Abadan. If Iran 
Air is complicit in Tehran's illicit behavior, as I believe it 
is, Iran Air should face new sanctions, U.S. licenses for 
aircraft sales should be revoked, and the Boeing and Airbus 
deals with Iran Air should be canceled.
    When Washington implements stricter sanctions, 
international banks and companies will think twice about 
working with the Iranian entities engaged in this malign 
conduct, especially with the IRGC. I agree with Mr. Albright. 
We need to rigorously enforce the deal, but it presents a 
bedeviling paradox. The greater the focus on enforcement, the 
higher the likelihood that Iran will take a patient pathway to 
nuclear weapons capability as a result of the agreement's 
sunset provisions and the lack of an effective mechanism to 
physically inspect Iranian military sites.
    To address this, as Mr. Albright has recommended, the Trump 
administration should work with Congress to design a statutory 
architecture that freezes the Iranian nuclear program where it 
is today, and impose new crippling sanctions if the nuclear 
breakout time drops under 1 year. To achieve this, Iran's 
advanced centrifuge research, development, and deployment 
levels, for example, need to be significantly constrained, and 
IAEA's physical access to military sites must be guarantied. 
There is no compelling reason for Iran to have a breakout time 
of less than 1 year.
    The Trump administration also needs to put Iran on notice 
that the U.S. will use force to counter Iranian aggression. 
Sanctions without the credible threat of military action will 
always be insufficient to change the regime's calculus.
    And, finally, the administration must make it clear to the 
Europeans, the Chinese, and the Russians that it is prepared to 
negotiate a follow-on agreement that addresses the fatal flaws 
of the original deal. Iran still struggling to attract foreign 
investment because of its continued malign activities could 
benefit from such an offer if it is prepared to halt its 
subversive behavior.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [Prepared statement of Mr. Dubowitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Takeyh, you're up for 5 minutes.

                 STATEMENT OF RAY TAKEYH, PH.D.

    Mr. Takeyh. Thank you, Mr. Chairman, Ranking Member, for 
inviting me. And it's a privilege to be here with my co-
panelists.
    I actually come with good news. The Islamic Republic is at 
an impasse. It is an ideological experiment born in the 20th 
century that has managed to crawl into this century, but this 
journey will end and the theocratic dictatorship will join 
their radical counterparts in the dustbin of history.
    In some ways, Iran today resembles the Soviet Union of the 
1970s, a bloated state that avoids reforms and eventually 
brought about its own collapse. The foremost function of U.S. 
policy, therefore, is to continuously weaken the wobbly 
foundations of the clerical regime by pressing it both 
internally and in the region.
    The theme of today in Washington today, these days, is to 
push back on Iran. I think it is important to remember that 
pushing back on Iran must begin in Iran itself. The summer of 
2009 and the rise of the green revolution will always be 
recalled as a watershed moment after which things are not the 
same. No less than Supreme Leader Ali Khamenei has confessed 
that the movement brought Iran, quote, to the edge of the 
cliff. General Mohammad Jafari, the Commander of the Guards, 
has suggested that the Green Movement was a greater danger for 
the system and the Islamic revolution, and we went to the brink 
of the overthrow and the sedition. Sedition is the pejorative 
term they use for the Green Movement. The regime's security 
services proved unreliable, dissension spread within the 
Guards, a number of commanders had to be dismissed, the ruling 
elites, which had perfected the strategy of staging counter-
demonstrations, failed to do so for 6 months.
    The Islamic Republic was never and is never a typical 
totalitarian state. Its electoral processes and institutions 
provided the public at least with a veneer, an impression of 
democratic representation. That republican element of the 
regime evaporated in 2009, and with it vanishes legitimacy.
    The task of American diplomacy is, as Mr. Dubowitz 
suggested, is similar to that as Ronald Reagan facing the 
Soviet Union, not just negotiate or renegotiate a better arms 
control agreement, but devise a comprehensive strategy that 
undermines the regime. As the administration at that time did 
with Solidarity in Poland and other such organizations, we 
should find a way of establishing ties with opposition 
movements within Iran.
    Given the Islamic Republic's cruelty and corruption, the 
opposition spans the entire social spectrum. The Iranians have 
given up, not just on the Islamic Republic, but on religious 
observance itself, as most mosques are empty during most Shia 
commemoration days. Three decades of theocratic rule has 
transformed Iran into one of the most secular nations in the 
Middle East. The middle class, the working poor are equally 
hard pressed by the regime's incompetence and corruption. Even 
some of the senior members of the clergy are beginning to 
recognize the toll that politics has taken on religion. America 
has ready allies in Iran and must make an effort to empower 
them.
    Economic sanctions, in my view, are a critical part of any 
strategy of pressuring Iran. The experience of the past few 
years has shown that the United States and its partners have 
real capacity to shrink Iran's economy. The fewer resources 
that the regime has at its disposal, the less capable it is of 
sustaining a cadre whose loyalty today is purchased, and the 
guardians of the revolution are well aware of that. Once 
deprived of money, the state will find it difficult to fund 
patronage networks that are essential to its rule and its 
imperial ventures.
    For Iran's leadership to yield to international norms, all 
the walls around them have to close in, so it is important to 
stress its economy, divide the society, but also to push back 
on its influence in the Middle East, as was mentioned before. 
By contesting Iran's gains, Washington can pose additional 
costs on the regime and contribute to regional stability. 
Iran's leaders believe that the vitality of the revolution 
mandate its exports, and it is that export that must be negated 
as means of undermining that revolution.
    The best arena to push back on Iran, I think, still remains 
in the Gulf. Iran and Saudi Arabia are locked into the regional 
conflict. We should assist all Gulf allies. Iraq, as was 
mentioned, is also a place where the United States can 
potentially have steady allies if it rehabilitates that 
country's institutions and the military. Iraq cannot be whole 
and free so long as Iran interferes in its affairs. A 
commitment by the United States to Iraq will go far to 
diminishing its ties to Iran.
    Some in Washington believe that the Iran problem is 
secondary to violent jihadists. For all their achievement, 
those movements do not yet possess the resources and capability 
of a large sophisticated state. It must be noted that the 
Iranian regime was the original Islamic revolutionary state. 
Its successes inspired a wave of radicals across the Middle 
East. At the most basic level, this is a confrontation between 
a super power and a second rate autocracy, and therefore, we 
should emulate Ronald Reagan's famous injunction in dealing 
with them: We win, they lose.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Takeyh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Walsh, you're up for 5 minutes.

                 STATEMENT OF JIM WALSH, PH.D.

    Mr. Walsh. Mr. Chairman, Mr. Ranking Member, members of the 
committee, it's an honor to be here today to discuss the 
implementation of the nuclear agreement with Iran and our P5+1 
international partners.
    Let me begin first by looking at Iran's compliance with the 
JCPOA. The JCPOA is a nuclear agreement. It's not an agreement 
on regional relations, human rights, or other issues, and it's 
a nuclear agreement for good reason. Denying Iran nuclear 
weapons is the uncontested single most important American 
objective in the Gulf. Yes, Iran supports policies that run 
contrary to American interests, but the only thing worse than 
an Iran that does bad things is an Iran that does bad things 
and has nuclear weapons.
    It's also worth noting, as I have explained in past 
testimony, that the JCPOA is arguably the strongest 
multilateral nonproliferation agreement negotiated in the 
nuclear age. No country has been subjected to the kind of 
intrusive inspection and verification embodied in this 
agreement. Today, IAEA has more inspectors on the ground in 
Iran than ever before.
    To assess Iran's compliance, I use a variety of metrics. 
One, Iran's implementation of specific provisions. Did Iran 
remove 98 percent of its uranium stockpile? Yes. Did Iran 
dismantle two-thirds of its centrifuges? Yes. Did it destroy 
the calandria of the Arak reactor? Yes. Time does not permit me 
to go through the whole list, but I think you get the idea.
    Next, I look at, two, assessments by others. The 
International Atomic Energy Agency, the U.S. intelligence 
community, our European partners, including Britain, France, 
Germany, and the EU, have all concluded that Iran is in 
compliance with its obligations. The Israeli military, for its 
part, has changed its threat assessment as a result of the 
nuclear agreement.
    Let me turn now to Iran's regional activities. Iran's 
regional activities pose problems for U.S. interests in the 
region, but by way of context, few countries in the Middle East 
have been shy about meddling in the affairs of their neighbors. 
Saudi Arabia, Qatar, Turkey, and Egypt, for example, have all 
recently intervened in other countries, directly or through 
proxies. Moreover, these practices have been a prominent 
feature in the region for decades.
    Now, none of this means that Iran's unwanted behavior 
should be simply accepted; it shouldn't. What it does suggest, 
however, is that regional meddling is not new, it is unlikely 
to go away any time soon by any of the players, and it should 
be judged in context and not in isolation. In short, this is 
the Middle East, and it has been like this for a very long 
time. But when it comes to Iran, ambition is one thing, 
capability is another.
    And even when one looks at the Iranian-Saudi rivalry, it's 
pretty clear who has the upper hand. In this competition, the 
Kingdom is supported by the Gulf Emirates, Pakistan, Egypt, and 
the U.S., among others. The Iranian side is poor and weak by 
comparison. It includes Lebanon, a weak state, Syria, in the 
middle of a civil war, and possibly Iraq, although I doubt that 
for the long-term, but is also fighting a war on its own 
territory. Saudi Arabia alone, without counting its many 
allies, is far wealthier than Iran and outspends its rival on 
defense.
    The International Institute for Strategic Studies reported 
that Saudi Arabia spends almost four times as much on its 
military as Iran. It goes on to conclude that, quote, Saudi 
Arabian Armed Forces remain the best equipped of all of the 
states in the region except Israel. So while Iran may have 
aspirations of hegemony, it lacks the economic and military 
capabilities to achieve that status, particularly in a region 
where Sunnis vastly outnumber the Shia.
    Terrorism. Iran is said to be the largest state sponsor of 
terrorism in the world, though some experts would instead point 
to Pakistan and Saudi Arabia. Critics of the agreement have 
suggested that it would free resources that Iran would use for 
increased terror activity. As my past testimony explains, there 
are reasons to doubt this. In addition, I went back and tested 
the proposition using the University of Maryland's global 
terrorism database. I examined terror attacks for all four 
groups that Iran has supported in the past. The results are 
striking and surprising.
    First, terror attacks by the most active groups are all 
significantly down from their historic highs. More tellingly, 
attacks are all down beginning around 2013, 2014, that is to 
say, with the JPOA and the JCPOA. Now, one will have to keep an 
eye on this to see if it changes, but to date, the data is 
clear: the rise in terror attacks by Iranian-backed groups 
predicted by critics simply did not happen.
    Ballistic missiles. Under the Security Council resolution, 
Iran has, quote, called upon not to carry out ballistic missile 
tests of nuclear-capable missiles. To be clear, the language in 
the resolution does not mandate that Iran end missile tests, 
and the resolution actually provides for missile technology 
transfers in the agreement. Since the time its cities were 
attacked by ballistic missiles by Iraq during the Iran-Iraq 
war, Iran has viewed missiles as a defense need, not 
surprisingly, and has achieved virtual self-sufficiency in that 
program. Sanctions cannot change that reality. Only a reduction 
of regional tensions can do that, but until then, the U.S. has 
other options at its disposal.
    In conclusion, I believe that Congress has an important 
role to play in the JCPOA's implementation, and I stand ready 
to work with this committee to make sure we achieve our common 
goal and our first priority: ensuring that Iran never acquires 
nuclear weapons.
    Thank you very much.
    [Prepared statement of Mr. Walsh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    The chair now recognizes himself for 5 minutes.
    General Barbero, you mentioned, which we don't mention 
enough, I think, the number of U.S. troops that were killed at 
the hands of Iran while we were in Iraq. And by my estimate, it 
was definitely hundreds and may have been over a thousand. Do 
you agree that those numbers are accurate?
    General Barbero. I agree, Mr. Chairman.
    Mr. DeSantis. And these are attacks that are directed by, 
in many cases, Iran's Quds Force, correct?
    General Barbero. They were active in equipping, training, 
and directing these attacks.
    Mr. DeSantis. And has there ever been any type of remorse 
or anything, Iran take responsibility, this deal, anything for 
all the American deaths?
    General Barbero. Absolutely not.
    Mr. DeSantis. Now, Iran is pursuing this ballistic missile 
program. What type of a threat does that pose to the United 
States and how should we respond to it?
    General Barbero. Well, I'm not the expert on ballistic 
missiles, but as a leader in the Middle East just described, 
the combination, the continued advancing of certain related 
technology, such as their centrifuge, and linking them with the 
long-range ballistic missile program is not good for the United 
States in the future, and that this deal is further described 
as zero nukes today, 100 nukes tomorrow.
    Mr. DeSantis. Mr. Dubowitz, 2231 has restrictions on 
ballistic missile activity. It talked about missiles designed 
to be capable of delivering nuclear weapons. How do you define 
a nuclear-capable missile? Is there a difference between that 
and conventional? Because what you'll hear people who defend 
Iran will say is, yeah, they did this ballistic missile, but 
that's not necessarily anything having to do with nuclear. 
They're just testing missiles.
    So how do you make that distinction, or do you?
    Mr. Dubowitz. Well, I think the key point, there are 
missiles that are capable of delivering a nuclear warhead, and 
many of Iran's missiles already are capable of delivering a 
warhead. And certainly Iran has a very active long-range 
ballistic missile program and an ICBM program that they are 
working on, not only by themselves, but always important to 
remember the extensive cooperation between Iran and North Korea 
on missiles and the long progress that North Korea has made on 
their ICBM program.
    Mr. DeSantis. And so what--is there a different purpose 
that would be reasonable for this ballistic missile program 
other than to deliver a nuclear payload?
    Mr. Dubowitz. Well, there's certainly no reason to have an 
ICBM, unless you're interested in delivering a nuclear payload. 
And the long-range ballistic missile program that Iran has is 
getting more sophisticated, more lethal, ranges are increasing. 
And it is absolutely clear, as you know, Secretary Kerry 
testified to the Senate Foreign Relations Committee in 2015, 
that the U.N. Security Council Resolution 2231 was designed to 
prohibit Iran from testing and developing those missiles.
    Mr. DeSantis. So how close is Iran, in your estimation, 
right now to developing an ICBM that could reach the United 
States?
    Mr. Dubowitz. Well, according to open source information, 
it's not imminent and still may be years away, but it's 
important to remember that the way Iran has structured and 
architected this nuclear deal is that there are multiple 
pathways. And what Mr. Walsh is not telling you is he--it's not 
the status quo today, it's the trajectory, it's Iran's 
trajectory on the nuclear side because of sunset provisions to 
an industrial size nuclear enrichment program; it's the 
trajectory on missiles, to a long-range ballistic missile 
program with an ICBM; and it's the economic trajectory, where 
they'll continue to fortify their economy against our ability 
to use economic pressure. It's the trajectory; it's the patient 
pathway to nuclear weapons capability, long-range ballistic 
missiles and an ICBM.
    Mr. DeSantis. So the lifting of sanctions, has that helped 
to boost the ballistic missile program?
    Mr. Dubowitz. The lifting of sanctions has helped to boost 
all of Iran's malign activities, because Iran is now--has 
resources that are available to it. The $100 billion in frozen 
oil money that was released, access to oil markets, the lifting 
of sector-based sanctions on key strategic sectors of the 
economy. Iran in 2013 was 4 to 6 months away from a severe 
balance to payments crisis. They were ready to collapse. So 
they were making very, very painful budgetary decisions at the 
time. Those decisions are a lot less painful when their economy 
is growing at 7, 8 percent, as it is today, inflation is down 
to single digits, and Iran's foreign exchange reserves are at 
least five or six times greater.
    Mr. DeSantis. So can additional sanctions imposed by 
Congress help rein in the ballistic missile program, and if so, 
how should they be targeted?
    Mr. Dubowitz. Congress needs to design a secondary 
sanctions regime that's predicated on Iran's ballistic missile 
malign activity, it needs to designate key entities that are in 
the ballistic missile supply chain, both foreign and domestic, 
and it needs to provide punishing sanctions against any foreign 
entity or any foreign bank that does business with any Iranian 
entity in support of that ballistic missile program. We are a 
long way from that, but I think the legislation that was 
introduced in the House and the Senate begins that process.
    Mr. DeSantis. And, finally, my last question. Mr. Takeyh, 
you talked about Iran, really this regime is on unstable 
foundations. You mentioned the 2009 Green Movement. What does 
this administration need to do to kind of further erode some of 
these foundations so that the Iranian people could have a 
better pathway forward?
    Mr. Takeyh. Well, I do think that it's very important to 
focus as much on human rights infractions as it is on nuclear 
infractions and terrorism. Iran is also member of various 
international bodies and has to adhere to international 
conventions on human rights behavior, which it is egregiously 
in violation of. I would actually support a sanctions regime 
along the lines of Mark that actually targeted human rights and 
human rights abuses that are ongoing in the country so there 
will be actual punishment.
    As I mentioned, our task is to continuously weaken the 
regime's coercive power and the regime itself. That actually 
now relies on the transactional relationship with its cadre. It 
essentially gives them money as enforcers. If it has less 
money, it has less capacity for enforcement.
    Mr. DeSantis. Thanks. My time's expired.
    I'll now recognize the ranking member, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Walsh, thank you for your testimony. I'm going to give 
you a couple of comparisons. We have a situation with Pakistan 
where they have nuclear weapons; not only that, they're fixated 
on India, they have mobile nuclear weapon capacities. So they 
keep--as a matter of defense, they keep moving their nuclear 
weapons around to avoid any first strike vulnerabilities. In 
the meantime, the Taliban and various warlords in those areas, 
they're not on the eastern border of Pakistan, they're more on 
the western part that is controlled, in large part, by the 
Taliban. And then we have North Korea that has nuclear weapons 
capacity already and highly unstable leadership, to say the 
least.
    What is greater risk right now? Is it North Korea that has 
nuclear weapons and, you know, like I say, a very unstable--I'm 
being generous here--a very unstable leader, Pakistan that has 
nuclear weapons and is moving them back and forth, or Iran that 
is stuck in a freeze here.
    And just--I just want to go through the checklist here. Did 
Iran remove 98 percent of its lightly enriched uranium 
stockpile? Yes, it did. Did Iran dismantle two-thirds of its 
centrifuges? Yes, it did. That's all been verified. Did Iran 
destroy the calandria at the Arak reactor? Yes. Our inspectors 
were there. They filled it with concrete. It cannot be used. 
That was a big step. That was a lot of research and effort on 
their part. Did Iran cap its level of enrichment to 3.67 
percent? Yes. Did Iran convert the Fordow underground facility? 
Yes, it did, mid-construction. Did Iran submit to 24/7 
International Atomic Energy Agency inspections of its sensitive 
facilities? Yes, it did. And is it reprocessing plutonium? No, 
it is not.
    So, again, what's the greatest danger here?
    Mr. Walsh. Yeah. Number one by far, I think--first of all, 
India, Pakistan, and North Korea are in a class by themselves 
in terms of nuclear danger. They're nuclear weapon states. You 
can only have a nuclear war if you have nuclear weapons.
    Mr. Lynch. Right.
    Mr. Walsh. And, frankly, the India-Pakistan situation has 
deteriorated recently. Even though it doesn't get as much play 
as this other stuff, I think it's far more serious. And then I 
worry about North Korea, having been to North Korea and studied 
it for years. I don't think Kim Jong-un is going to start a war 
on purpose, because he knows he's going to lose, but I fear 
that we're one dead fisherman away from some crisis that 
escalates. Because everyone is leaning forward, it's a very 
escalatory environment.
    Iran doesn't have a nuclear weapon. It's not going to have 
one for 15 years. I, frankly, think it's going to be a lot 
longer than that. I don't think these things compare.
    And let me say, within the region, you know, Iran is not 10 
feet tall. It's not the Soviet Union. It's not even the most 
powerful country in its own region. By my estimation, Israel, 
Turkey, Saudi Arabia are all far stronger by GDP, military 
expenditures, quality of weapons. It's--if it's fourth, it's 
lucky.
    Mr. Lynch. Let me ask you, recently President Trump tweeted 
out, this was his tweet: ``Iran has been formally put on notice 
for firing a ballistic missile,'' close quote. Is there--is 
there a--is there a legal or defense terminology to being put 
on notice? Is there any technical thing that I'm missing there?
    Mr. Walsh. I--it's not my job to interpret the tweets of 
the President. It certainly doesn't add up to a policy.
    Listen, most of the experts you've talked to, Michael 
Elleman, who's a missile expert, others, they'll say that the 
program is largely indigenous. Its purpose is asymmetric 
deterrence. It fears an attack by another state. It has no ICBM 
program, I'm going to have to disagree with my good friend, 
Mark. And if you look at my testimony, there are footnotes to 
that effect.
    It hasn't flight tested an ICBM. You can't have an ICBM 
program if you haven't flight tested a missile. So I think 
that's a missile program. I wish they didn't have missiles, I 
wish no one had missiles, but I don't think sanctions are going 
to somehow change the defense needs.
    Mr. Lynch. I have to reclaim my time. And I appreciate your 
remarks. And also ballistic missile control is an aspirational 
statement within the agreement; it's not a requirement.
    Mr. Walsh. Right.
    Mr. Lynch. Just yesterday, North Korea, a nation, again, 
with dangerous nuclear weapons, fired a ballistic missile that 
was just the latest in a series of test firings. Here's what 
Secretary Tillerson said: ``North Korea launched yet another 
immediate-range ballistic missile. The United States has spoken 
enough about North Korea. We have no further comment,'' close 
quote.
    So, you know, there are some dangers out there, but I don't 
think giving Iran back the ability to develop nuclear weapons 
is the way to go.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the vice chairman of the 
subcommittee, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here today.
    General Barbero, it's great to see you. I guess my first 
question, I'm a little taken aback that Iran does not present a 
significant imminent, unusual threat to U.S. interests. How 
would you characterize Iran as a threat? Do you agree with that 
statement?
    General Barbero. I don't agree with that, Congressman. You 
know, Iran's actions have been diametrically opposed to U.S. 
interests in the region, and they're acting on those and 
executing a strategy.
    Mr. Russell. And in one of your capacities, you took a lot 
of interest in explosively formed projectiles, IEDs, and the 
destruction that they caused on U.S. soldiers in theater. Who 
was behind most of the EFPs?
    General Barbero. These were copper plates that were used 
and designed for one purpose: to burn through American armor, 
and they were used exclusively targeting American vehicles and 
forces, causing, you know, casualties across the board.
    There is intelligence that forensically links and tracks 
these plates back to their factories in Iran by lots, and we're 
now starting to see the same type of plates in Bahrain being 
used by the Iranian proxies there.
    Mr. Russell. And so I just--you know, we've stood on the 
same turf together on some very dark days, and I--I just kind 
of take--you know, I'm taken aback that Iran is not an 
imminent, unusual, or significant threat, or somehow because 
the neighborhood is a bad neighborhood, that they are justified 
in their criminal activity. I think that that is absurd.
    Mr. Walsh, Iran signed the Nuclear Non-Proliferation 
Treaty. So they promised that they wouldn't proliferate nuclear 
weapons. Why didn't we just leave it at that?
    Mr. Walsh. Well, we didn't leave it at that, sir. We have 
extensive safeguards arrangements that have grown more 
intrusive over time and now have been expanded again under the 
JCPOA. We--normally, we don't take people at their word.
    Mr. Russell. Well, in your initial testimony, you talked 
about that this was the best safeguard to prevent them from the 
quick track of developing nuclear weapons, but they signed the 
nonproliferation treaty, so why didn't we just take them at 
their word? We're taking them at their word now. Why isn't 
their word good enough by them signing the treaty?
    Mr. Walsh. Well, we've never taken any country at its word 
on nonproliferation. As I said, we have safeguards agreements 
that came with the NPT and we have verification measures in 
Iraq. I mean, we have 24/7 electronic monitoring of their most 
sensitive nuclear facilities. Their----
    Mr. Russell. Unless they're military, right? The IAEA is 
not granted access to military----
    Mr. Walsh. That's not true, sir. Under the additional 
protocol, they are absolutely granted----
    Mr. Russell. Under the protocols they are. How is that 
access going with them?
    Mr. Walsh. Well, I know of no instances in which the IAEA 
has demanded access to a military site and not received it. 
Now, if they did, they are----
    Mr. Russell. You stated in your testimony, sir, that they 
were denied access, but that they were given, as I read the 
testimony, because I realize that we didn't have time to go 
through all of it, but they were given assurances from the 
Iranian Government that everything was okay at those 
facilities. So we're taking them at their word, yes or no?
    Mr. Walsh. I think that's David's testimony, not mine.
    Mr. Russell. Oh, David. My apologies, Mr. Walsh. Is it 
still true?
    Mr. Walsh. Well, under the agreement, the IAEA both under 
the initial protocol and the agreement has access to it. And if 
they feel that they are not getting satisfaction, then they're 
able to take that directly to the U.N. Security Council and 
U.S. snapback sanctions. And by the way, the U.S. has its own 
intelligence community, the Israelis have an intelligence 
community, the Russians have an intelligence community. If they 
find that--if they think that there's cheating, I'm pretty sure 
you're going to see a file before the U.N. Security----
    Mr. Russell. Well, we're already seeing evidence of a lot 
of cheating, which is why we're all ready for a little 
snapback.
    And, I guess, two things with regard--ballistic missile 
tests not being part of a threat, and yet you are one of the 
most accurate writers of the dangers and the imminent threat of 
North Korea. Why are we even concerned that they launched a 
missile yesterday? Shouldn't--I mean, if missiles don't really 
matter, why are we concerned about North Korea's missiles?
    Mr. Walsh. Well, I think we're worried about North Korea's 
missiles because they're going to mate a nuclear weapon to 
them. That's not going to happen in the case of Iran because we 
have the JCPOA. I also----
    Mr. Russell. Can they at the end of 10 years? They can do 
whatever they like. It's wide open.
    Mr. Walsh. It's not 10 years. And some of the restrictions 
of the JCPOA go in perpetuity, they last forever. Like, they're 
not bringing the calandria back, right? That's destroyed 
forever. Some of the restrictions go for 20 years, 25 years.
    Mr. Russell. Well, in my remaining time, Mr. Chairman, I 
just want to make the statement that as far as Iran just being 
part of the--you know, its bad neighborhood, no one is a 
greater proliferator of terrorism than Iran. They've killed 
more Americans since 1979 than any other state. We have seen 
repeated attacks. General Joseph Votel, commander of CENTCOM: 
Iran poses the most significant threat to the central region 
and to our national interests and the interests of our partners 
and allies.
    We've seen the Director of National Intelligence 2016 
report: Iran presents an enduring threat to U.S. national 
interests because of its support to regional terrorism.
    And I would argue that any dropoff in terrorist activity, 
Mr. Chairman, has not been because of goodwill of the JCPOA; 
it's been because they're fighting in Yemen and Syria and in 
militias in Iraq.
    Hopefully, we'll get a round two. And I appreciate your 
indulgence. I'm out of time.
    I yield back, Mr. Chairman.
    Mr. DeSantis. The gentleman's time has expired.
    Mr. Walsh, what would you say, I mean, with the Syria deal, 
with the chemical weapons? The administration heralded it, 
they're gone. Even the Israelis said, oh, it was good. Well, it 
turned out not to be the case. And so we--and I agree with you, 
there are Israelis you talk to, and they think that from what 
they can tell, they may have been in check, but we don't know 
what we don't know, and that's what I'm concerned about. In 
Syria, a lot of people thought that that had been taken care 
of, and obviously, tragically this week we found out it didn't.
    Mr. Walsh. Yeah. I think it's way easier to produce a 
chemical weapon, which is basically just using industrial 
chemicals and weaponizing it, than to make a nuclear weapon and 
a miniaturized warhead. They're just in terms of the capacity 
required, you know, night and day.
    So I think it was a good thing to get all that agent out. 
Had we struck Syria, we might have sent a weak deterrent 
message, but all that agent would have been there. We got a lot 
of it out, but they went back to making it.
    Mr. DeSantis. All right.
    And I will now recognize the gentleman from Vermont for 5 
minutes.
    Mr. Welch. Thank you very much. Thank you, Mr. Chairman, 
for this hearing, and Ranking Member Lynch.
    First, I want to say thank you to General Barbero and also 
to his colleague and fellow soldier, my colleague, Mr. Russell, 
for your service. And let me tell you, listening to both of you 
is very powerful, because you were on the receiving end of a 
lot of malign behavior from Iran. So how can I express my 
appreciation for that, we all are. But I know that you also 
appreciate that this is about a policy that is important to the 
U.S. and its allies.
    And the question for me on this whole Iran nuclear deal was 
not whether I was going to turn a blind eye to what you 
experienced, it was whether in the longrun the region would be 
safer with a malign but nonnuclear Iran than with a malign and 
nuclear Iran. And we had a lot of debate here and will continue 
to have disagreement about whether the Iran deal was a good 
deal or a bad deal, but where we're at now is we have a deal, 
and I share the concern about wanting it to be enforced.
    The concern I have is that some folks who are of the view 
that it was a bad deal, from my perspective, may go too far in 
using enforcement arguments as a way to try to unravel it, but 
that's a--that's in the eye of the beholder. I think we're all 
in agreement that we have to enforce this deal.
    One of the questions I have, you know, President Trump, as 
you know, thought it was a terrible deal, he said that during 
the campaign. But the budget that he's proposing is going to 
significantly cut State Department funding. I saw that General 
Mattis said that we need State Department funding, because the 
less money they get, the more I have to ask for for ammunition. 
But that's going to directly affect the boots on the ground of 
the IAEA.
    And I'll just ask you, General Barbero, I know you oppose 
the agreement, but do you think it would jeopardize our 
capacity to monitor and enforce if we have a significantly 
reduced budget for the enforcement agency?
    General Barbero. Well, I think it would damage our 
abilities to monitor this deal. But if I could, Congressman, 
you know, this is not--hopefully, do not come across as an old 
soldier who is bitter about what happened.
    Mr. Welch. I didn't hear that.
    General Barbero. But this is about American national 
interests----
    Mr. Welch. Right.
    General Barbero. --and currently in the region, and what I 
here from leaders, where are--where is the United States? This 
is a zero-nukes-today-100-nukes-tomorrow deal. This is a 
postponement, not a cessation. And we should look--we should 
not sacrifice other American interests in the region at the 
expense of this deal. And it seems from the capitals there that 
America has pulled back and American leadership is lacking in 
confronting this real, and in some cases, existential threat to 
our friends and allies in the region.
    Mr. Welch. A lot of people agree with what you just said. 
But, you know, if we're honest with ourselves, this is a tough 
situation. It's not like there's a definitive answer. And a lot 
of times, the American people want a military response, partly 
because they trust the military, and partly because when 
something really bad happens, they want a definitive action 
that is going to make it go away. But we saw it with our 
engagement in the Middle East, and I think President Trump 
talked about this during the campaign, that some of those 
decisions didn't work out the way it was hoped. You know, we 
did nation building in Afghanistan and Iraq; it didn't work. We 
aided people in Libya, and it was a mess. And we stayed out of 
Syria, and that's a mess.
    So I'm just asking all of you, even with your point of 
view, which is I think different than mine, to acknowledge that 
there is not an easy call for the President, whether it was 
Obama or it's Trump.
    General Barbero. If I could go further?
    Mr. Welch. Sure.
    General Barbero. I agree. This is not an easy challenge, 
but the argument is not to, you know, reinvade and 100,000 
troops and do nothing. There are plenty of actions we could 
take. Sanctions, declare the IRGC a terrorist--a foreign 
terrorist organization, which they clearly are. Go after the 
financing of the IRGC and their----
    Mr. Welch. I note that Mr. Lynch is very active in the 
financing.
    General Barbero. --and work with our allies in the region.
    General Jones, Jim Jones, former national security adviser, 
SACEUR, said let's lead the way in formulating a NATO-like 
defense agreement and body within the Gulf--with the Gulf 
States and Saudi Arabia. I think they're ready for that. So 
there's a number of things we can do.
    Mr. Welch. My time is up. But thank you, General.
    Mr. DeSantis. The gentleman's time has expired.
    We have a procedural vote, but I'm not going to stop the 
hearing for it, so members can go and come back. We're going to 
keep it going, because I think it's just one vote and done. 
These are not our actual votes that we had scheduled at 4 
o'clock. And I don't want to have to adjourn twice in 30 
minutes.
    So with that, I will now recognize Mr. Comer for 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    My question is for Mr. Albright and Mr. Dubowitz. Are the 
joint comprehensive plan of actions current, inspection and 
transparency measures sufficient to verify Iran is abiding by 
its terms?
    Mr. Albright. In theory, the international inspectors have 
tremendous rights of access. It's given by what's called the 
comprehensive safeguards agreement. Unfortunately, Iran's 
policy is to deny access to military sites, and it has done so 
on multiple occasions. And even in the example of the Parchin 
site, which was finally accessed by the IA, it only got one 
visit, and it got partial access.
    If you take bans in the JCPOA against nuclear weapons 
development activities inside Iran, those need inspections of 
military sites. And they are not--those military inspections or 
the visits to the military sites are not happening.
    So I would say that parts of the JCPOA are not verified. 
Parts of it have not been tested yet, that in the sense that 
the IA is going to ask to go to military sites, and the 
expectation is that Iran is going to say no, because that's 
been its policy. So I think that the bottom line is, is that 
parts of the JCPOA are unverified, parts are untested. The 
parts that are well verified are the declared sites.
    Mr. Walsh referred to those as sensitive. They're the known 
sites. And so those have been verified quite a bit, but the IA 
is still unable to answer the basic question: Does Iran have 
undeclared nuclear activities? It still does not know the 
answer to that question. And when it tries to do that, it very 
well could be there's going to be a major confrontation with 
Iran over access.
    Mr. Dubowitz. Well, I mean, I agree. I mean, Supreme Leader 
Ali Khamenei, quote, ``Inspection of our military sites is out 
of the question.'' Foreign Minister Zarif before the Iranian 
parliament: We've successfully achieved the goal of preventing 
IAEA access to military facilities. Ali Velayati, an adviser to 
Khamenei, quote, ``Entry into our military sites is absolutely 
forbidden.''
    And Mr. Albright mentioned Parchin. Remember, the IAEA 
didn't get physical inspection of the Parchin military site. It 
got self-inspection, where the Iranians were providing samples. 
Interestingly enough, even when providing samples to the IAEA 
and not letting them in through the gates, naturally, manmade 
uranium particles were actually discovered.
    The IAEA should have insisted, under the comprehensive 
safeguards agreement, for a follow-on physical inspection. They 
did not. So now you have to the Parchin precedence, which is--
you know, it's not the name of some Robert Ludlum novel. It is 
what the Iranians will invoke the next time we want to go into 
their military sites. They'll say, you're not getting in. And 
maybe at the end of the day they'll let in another self-
inspection.
    But I think as Mr. Albright, as my colleague, Dr. Olli 
Heinonen has said, it is insufficient. And unless you get into 
these sites, into these small sites, you're not going to be 
able to confirm whether there are weaponization activities 
taking place.
    Mr. Comer. Mr. Dubowitz, let me ask you this: How did 
updates to the Department of Treasury's OFAC frequently asked 
questions weaken sanctions on Iran?
    Mr. Dubowitz. So in three major ways. One, it provided 
explicit permission for Iran to use dollars outside of the U.S. 
financial system and clear dollars in offshore dollar clearing 
facilities. Again, that was a concession not negotiated by Iran 
as part of the JCPOA.
    Second, it weakened the restrictions on doing business with 
the Revolutionary Guards in providing more--more of a space for 
foreign companies to do business with entities where they were 
not majority controlled by the IRGC.
    And third, it lowered the know-your-customers customer due 
diligence requirements, which had been a longstanding feature 
of U.S. anti-money laundering and counter-financing of 
terrorism laws.
    Again, all three concessions unilaterally given by the 
Obama administration in exchange for nothing from Iran and not 
part of the JCPOA's explicit text, as far as I can find.
    Mr. Comer. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeSantis. The gentleman yields back.
    Do we have--I guess the Dems have left the building. Let me 
just--we're going to go out for votes.
    But, Mr. Albright, you pointed out Iran is basically doing 
serial violations, but they're doing it kind of up to the point 
before it would lead to an actual response. And that's 
concerning, because it seems like they can get away with a lot 
bit by bit.
    What would it take for them to do--to engage in conduct 
that would actually lead to snapback sanctions? Because my 
sense is that a lot of the Europeans, who are a part of the 
deal, don't have a lot of appetite for that.
    Mr. Albright. In fact, it's actually--even though it 
appears to have been a very strong part of the deal, it's 
actually one of the problems of the deal, is that if the IA, 
let's say, really gets aggressive and asks to go to the 
military sites, it has a list that it would like to look at for 
various reasons, it has to worry that it will bring down the 
entire deal.
    And so I think part of the challenge for the Trump 
administration is to--how to enforce this deal more effectively 
within the context of the deal. And I think the Europeans would 
actually be interested.
    I mean, there's a whole range of issues that are on the 
table in these discussions among the P5+1 where Iran is, I 
would say, violating the deal. It's on heavy water. It's on 
centrifuge research and development. It's on--it is on the IA 
ability to do its inspections. I mentioned section T on 
weaponization bans. I mean, they do need to verify that this--
this part of the JCPOA is being agreed--abided by by Iran.
    So I think the mechanisms will probably be in the joint 
commission within the procurement working group, but I think a 
critical thing would be for the Trump administration to make it 
very clear that it is going to--it is going to enforce this 
deal strictly, and it's no longer going to tolerate, 
essentially, what is Iranian games to push the limits of the 
deal and at the same time get compensation for those. It could 
be in the form of money for sales of heavy water or in terms of 
uranium imports. It's short on uranium, and it has been able to 
use the deal to increase its uranium supply.
    Mr. DeSantis. So given some of the deficiencies that you've 
outlined, I think it's really good stuff. I mean, is it--is it 
correct to say for certain we know Iran is--that this deal has 
worked? I mean, it seems to me that even if some of the areas 
that people discussed, even if you take that at face value, 
there's still stuff we don't know. So can we definitively say 
that the deal has worked?
    Mr. Albright. I think you can say that the deal has 
accomplished certain objectives. And Mr. Lynch went through--
went through several of them, and those are important. But will 
the deal succeed in preventing Iran from building nuclear 
weapons? I think that's a very open question, and it's a 
worrisome question given the current trajectory of this deal.
    And I think it really is a time to get much tougher on Iran 
and to make sure that it's going to abide by it, and that--and 
that, in addition--and Mark discussed this--we have to fix the 
weaknesses in the deal, particularly in the long term. And 
that--and that--but we first have to get the deal in order, 
strictly enforce it, and then we have to start looking at how 
do you improve this deal to make sure that Iran does not have a 
huge nuclear weapons capability that starts to grow in year 10.
    Mr. DeSantis. Well, thank you.
    We--I was actually wrong about we're going to do the rest 
of the votes for the day. We're--the members have left because 
of that, so I know we had others who wanted to participate.
    I think it was a very informative panel. I want to thank 
you guys for coming, offering your views, and answering the 
questions.
    And clearly, this is going to be an issue that this 
administration is going to deal with and that we in the 
Congress are going to have to deal with in one form or another.
    So with that, the hearing is now adjourned.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
